ACCOUNTABILITY

     FOR

BLOCK GRANTS




         COMME
    INSPECTON AN EVALUATION

       PRESIDENT' S COUNCIL
   ON INGRIT AN EFFICIENCY

               JULY 1996
         OEI-01-96-00100
               EXECUTIVE SUMMAR 

 PUROSE
 To help determine the sufficiency of the accountability provisions in the statutes of
 Federal block grant programs.



BACKGROUN
In December 1995 ,
                the Deputy Director for Management in the Executive Office of

Management and Budget (OMB) asked the Vice Chair of the President s Council on

Integrity and Efficiency (PCIE) to determine if there were sufficient provisions for

accountabilty in Federal  block grant programs. The Vice Chair assigned this

responsibilty to the PCIE' s Committee on Inspection and Evaluation which worked

with the Inspection Roundtable to produce this report.

We respond to the original OMB request primarily by focusing on the statutes of 

Federal programs commonly referred to as block grants. We concentrate on the

statutes because of their fundamental significance in establishing a framework for

accountability. We recognize that a detailed review of Federal regulatory and non-

regulatory guidance and an in- depth analysis of actual practice in enforcing statutory,
regulatory, and other guidance would be necessary to definitively determine the
sufficiency of oversight. Such a comprehensive review is , however, impractical within
current resource limitations. We hope our more limited     review of the statutes wil
provide valuable insights on the sufficiency of block grant accountability provisions.

GENERA ACCOUNABILIT CONCEPTS
A fundamental precept of block grant accountabilty is that the Federal Governent
must be assured that the funds are spent for purposes designated by the Federal
legislation establishig the program.

       There is some basis for concern as to whether the Federal Government can be
       adequately assured that block grant funds wil be spent for the designated
       purposes.

Historically, there have been widely varyg views on how much accountabilty is
necessary in Federal legislation.

      On one end of the continuum are those who hold that Federal intervention must
      be kept to a bare minimum , that the focal point of accountability must be the
      citizens of the States and localities. On the other end are those who believe that
      proper accountability must include numerous programmatic and process
      conditions imposed on grantees and various oversight authorities conferred on
      Federal agencies.

In recent years   , there appears to be an emergig consensus   that the Federal
Governent should hold grantees accountable for results but free them from many
process and conditional requirements.

       This convergence is apparent in a number of Federal activities. They include
       the Vice President s Report on the National Performance Review , the Chief
       Financial Officers Act of 1990 , the Government Performance and Results Act
       of 1993 , various amendments to block grant programs , recent GAO and OIG
       reports , the proposed Public Health Service Performance Partnership Act of
       1995 , and the proposed Medicaid Transformation Act of 1995.

SPECIFIC ACCOUNABILIT ISSUE

The block grant statutes themselves offer little basis for the Federal Governent to
determe the adequacy of the control and oversight of fiancial management.
       The statutes , in effect , rely heavily on each State s own laws and procedures
       concerning the obligation and expenditure of funds and each State s own
       systems for grants management and recordkeeping.

About hal of the block grant statutes devote no attention to measurable program
results that faciltate an understanding of performance.

       Seven of the 13 statutes do not call for performance goals and indicators
       expressed in tangible , measurable terms as called for by the Government
       Performance and Results Act (GPRA).

       Most (10) require the grantee and/or Federal agency to perform some
       kind of program evaluation during some period of time , but only 6 have
       an explicit evaluation requirement directed to the grantee.

      None of the statutes include provisions callng for verification of the accuracy of
      performance or other evaluative data used by the grantee or the Federal
       agency.

Most block grant statutes include conditions governg who gets served and what
servces are offered; however, the range of specifcity is quite broad.

      Eleven statutes include earmarks that call for a designated proportion of funds
      to be spent on certain categories of recipients. Eight stipulate a proportion of
      funds for certain types of services.

      Nearly all (12) require the grantees to provide explicitly defined services , to
      coordinate with other relevant bodies or groups , and/or to carry out services in
      particular ways. Some of these provisions are quite broad , however.
CONCLUSION

At root , decisions concerning accountability for block grants are political ones. These
decisions rest heavily on one s views of the respective roles of the Federal Government
and the 50 State governments.

If those who craft legislation to develop new or modify existing block grant programs
believe that the Federal Government ought to have a significant role in ensuring the
proper and effective use of block grant funds , then they must provide an adequate
basis for doing so. Toward that end , we offer the following four suggestions:

       Require that the Federal Uniform Administrative Requirements or similar
       provisions apply to these programs.

       Establish an appropriate mechanism for measuring and verifying program
       performance. It would be helpful in this context to look to the Government
       Performance and Results Act of 1993    for guidance.


       Be specific about programmatic requirements in the statute itself. This might
       involve earmarks for certain categories of recipients and/or certain types of
       funds and an explicit listing of the tyes of services covered or unallowable.

       Examine other provisions that we have identified in this report to determine
       the kind of accountability that is desired for any specific block grant program.
       We have developed a checklist of them in Table 2 of this report.

On the other hand , if the intention is minimize the Federal role , then provisions such
as those noted above , which move toward the categorical end of the Federal grant
continuum , become less pertinent and available State government mechanisms become
much more significant. It is important to recognize , however , that this is likely to
leave Federal officials with little or no capacity to ensure that funds are used for the
purposes intended and to move block grants much closer to the general revenue
sharing end of the continuum.
                    ...................................
                                          ..........................."                                                                ... .... ... .... .......
                                                                 . .. .. .. .. .. .. .. .. .. .. .. .. .. .......... .. ... .. ........
                       . . .. .. ... ... ... ... .. .. .. .. .. ..
                 ..................................                                                                                                           ................................... ..
                                                                                                                                                                                                  . ..




                       TABLE OF CONTENTS

                                                                                                                                                                                         PAGE

EXECU SUMY
BACKGROUN. . 

GENERA ACCOUNABILIT CONCEPT . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

  . Concerns about Expenditures.                                                                                                                                                               . . 4



  . Contrasting Perspectives on                            Other Accountability Issues . . . . . . . . . . . . . . . . . . 5


  . Emerging    Interest in Performance


SPECIFIC ACCOUNABILIT ISSUE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


 . Financial   Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                             . . . . . . . 8

 . Performance                                                                                                                                   . . . . . . . . . . . . . . . 9

 . Programmatic Requirements                                                                                                                                                               .. 10



 . Quality Assurance


CONo.USION
COMMNT ON TH DRA REPORT
APPENDICE
A: Accountability Provisions in Block Grant Statutes
B: Endnotes ................................................... B­

PUROSE
To help determine the sufficiency of the accountability provisions in the statutes of
Federal block grant programs.



BACKGROUN
Rationale for the Report

In December 1995 , John A. Koskinen ,
                                    Deputy Director for Management in the
Executive Office of Management and Budget , asked June Gibbs Brown , as Vice Chair
of the President's Council on Integrity and Efficiency, to examine accountabilty issues
associated with Federal funding. His request involved two major components. The
first was to determine accountabilty issues that need to be addressed in the proposed
Local Flexibility bil introduced in the U. S. Senate as S. 88 and entitled " The Local
Empowerment and Flexibility Act of 1995. " The second was to review current block
grant programs to determine if there are sufficient provisions for accountability in
them.

This report is a response to the second request. A response to the first request is in a
March 1996 memorandum from June Gibbs Brown to John A. Koskinen.

Federal Block Grants

It is helpful to think of block grants as one of three basic types of Federal grants
distinguished from one another by the degree of discretion afforded the grantee (see
                   l On the end of the continuum providing for the least discretion are
Figure 1 below).
categorical grants , which by far are the most prominent in both numbers of programs
and amount of dollars. On the other end , providing for the most discretion are
general revenue sharig grants , which Congress introduced in 1972 and terminated in
1986.   Block grants occupy a middle ground between these extremes. In terms
the degree of discretion they afford , they cover a wide range , with some edging very
close to , and in some respects being indistinguishable from , categorical grants and
others being much closer to the general revenue sharing mode.


                                      FIGURE

                  Continuum of Federal Grants by Recipient Discretion

  Least Restrictive                                                  Most Restrictive

        General                          Block                             Categorical
  Revenue Sharing                       Grants                               Grants
  ....




 In      this report we focus on 13 Federal programs commonly referred to as block grants
(see Table 1). 3 Some , such as the Community Development and Social Services
programs , are more than two decades old. Others , such as the Surface Transportation
Program and the Child Care and Development Program , are products of the 1990s.
Most block grants have been amended since their inception , usually with additional
accountabilty provisions. Overall , these programs account for about $19 bilion in
Federal expenditures for Fiscal year 1995 ,                         far less than expenditures for categorical
grants.

                                                     Table 1: Federal Bloc Grants

      Dement of Health and Human Serce                                                                      FY 199 awa"
             Soc Serce Provides States with funding for a broad range of social services directed            $2, 800, 000. 000

             to children , adults , and the aged.

             Lo Income Home Ener Asislance Pro: Makes grants available to States to assist                    419 202,479"

             eligible households to meet the costs of home energy.

             Substace Abus Preention and Tretment: Provides financial assistance to States for                  23,107, 000

             prevention , treatment, and rehabilitation activities directed to alcohol and drug abuse.

             Chd Ca and Development: Makes grants available to States to assist low- income                     934 641.777

             familes with child care services.

             Matcm and Olild      Health: Assists States to provide/assure access to health services and        572 259. 000

             to improve the health status of mothers and children , particularly those with low incomes.

             Community Sece: Provides services and activities having a measurable impact on causes              391 500 000

             of poverty in areas where poverty is an acute problem.

             Community Menta Health Serce Provides financial assistance to States for                           277 919, 000

             comprehensive community mental health services to adults and children.

             Preentive Heath and Heath Servce Provides resources to States to improve the health                151, 952, 987

             status of grantee populations.

  Dement of Transporttion
             SUIace Transporttion    Prom: Assists State highway agencies in the development                 000 000 000' "
             improvement , and rehabilitation of transportation projects.
             Feder Transit Capita and Operating Asislance Provides for capital projects and the                933 761.000
             financing, planning, and operating costs of equipment, facilities , and associated
             maintenance items for use in mass transportation.
  Depment of Labor
             Job Training and Parnership Act: Establishes programs to prepare youth and adults facing
                                                                                                               653 462. 000
             barrers to employment for participation in the labor force.

  Depment of I lousing and Urban Development
             Community Development: Provides funding to States and local governments to support for            157. 000. 000
             housing and community development activities directed to low income individuals.

  Depment of Education
             Inovtive Education Progrm Strateges: A sists State and local educational agencies to            370 000, 000" "
             improve elementary and secondary education.
 Source: Catalo     e o Federal Domestic Assistance Offce of Mallagemell alld Budget (1995).

                                                                                                              Tota Funds

  "Dollars do lIot reflect budget obfigatiol/; they are estimated gram awards for the fiscal year.
                                                                                                            $19,525 805,23



Report Focus and Methodology

The objective of this report is to contribute to a better understanding of the
accountability provisions in Federal block grants by assessing their statutory basis. We
focus on the statutes because of their fundamental significance in establishing a
framework for accountability in the block grant programs. We recognize that a review
of accountability provisions in regulatory and non-regulatory guidance provided by
Federal agencies could contribute further understanding on the sufficiency
accountability provisions for block grants. We also recognize that a review of actual
practice in enforcing statutory, regulatory, and other forms of guidance would offer
valuable insights. Because the statutes establish a basic framework for accountabilty,
we determined that they also   afforded a valuable focus for our limited ,   brief review of
the suffciency of accountability   provisions.

Our methodology was threefold: First , we identified various approaches to
accountabilty. We did this by drawing on the extensive literature on the subject , in
particular a review of that literature in a recent report issued by the Office of
Inspector General in the U. S. Department of Health and Human Services.

Second , this brief review of accountability approaches provided vital context for our
subsequent examination of the accountabilty provisions that appear in the statutes
establishing 13 current Federal block grant programs. In this examination , we
distinguished four basic types of accountability provisions-- those   focusing on financial
management , performance , programmatic requirements , and quality assurance. Within
each of these types , we offered further classifications that specify conditions imposed
on grant recipients and oversight authorities afforded to Federal agencies.

                                                                               6 For key

terms used in our inventory of performance accountability provisions , we relied upon
definitions set forth in the Government Performance and Results Act of 1993 (see
appendix A for the terms and definitions).

Third, although we did not seek to document the accountabilty provisions existing in
other relevant statutes or in the regulations concerning block grant statutes , our
inquiry led us to review a number of such statutes and regulations. These include: the
Single Audit Act of 1984 , the Chief Financial Officers Act of 1990 , the Government
Performance and Results Act of 1993 , the Department of Health and Human Services
regulations implementing the block grants of 1982 (45 C.F. R. Part 96), and the
Uniform Administrative Requirements for Grants and Cooperative Agreements to
State and Local Governments.

Our approach offers both a perspective and information about current accountability
provisions. It provides a convenient checklist for those designing or implementing
block grants to use in deciding how much accountability to build into the underlying
statutes and regulations. In itself this report does not provide a basis for drawing hard
conclusions about the efficacy of specific accountability provisions; however , it does
give rise to some broad issues that may warrant further discussion and analysis.

GENERA ACCOUNABILIT CONCEPT

The essence of a block grant is to afford the grant recipient substantial discretion in
using the block grant funds. The great challenge for Federal policymakers is to
develop approaches that afford suffcient accountability while preserving the flexibility
inherent in a block grant.
Notwithstanding the extensive literature on the subject , there is no standard reference
document explaining how this challenge can be met. There are texts in accounting,
political science , and even political philosophy that afford pertinent guidance , but in
themselves none is adequate. Further , how one perceives accountability is likely to
depend heavily on how one views the role of the Federal Government on the one
hand and State and local governments on the other.

In this context , we examine various aspects of accountability. They wil not offer the
elusive standard reference document , but they can help in developing a framework for
steps that can be taken by those in the executive and legislative branches of the
Federal Government interested in developing accountability provisions consistent with
the block grant funding mechanism.

Concerns about Exenditures

There is one fundamental precept of block grant accountability that rests on
widespread support and that must not be overlooked when considering the many
complexities of accountability:

              The Federal government must be assured that Federal block
              grant fund are spent for purposes designated by the Federal
              legislation establishing the block grant program.

The critical accountability question is whether there is reasonable assurance that
Federal block grant funds are being spent for purposes designated in the authorizing
legislation. We cannot be sure of the answer , but there are reasons for some concern.
Recognizing that the Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments does not apply to Federal
block grants , many in the Federal inspector general community and in other positions
involving oversight of Federal grants indicate that the exclusion of this requirement
which applies to other Federal grants , impedes assurances that records wil be kept
and maintained in a manner that allows for proper audits. One commenter added
that the Uniform Administrative Requirements provide adequate tlexibility to the
States for financial , equipment , procurement , and subgrantee management , while
establishing a consistent framework for fundamental accountability on such matters as
cash management of Federal advances , allowable costs , non- Federal audits , and grant
closeout.

Others , at Federal and State levels , would respond that State and local governments
have their own administrative requirements that provide sufficient safeguards for
audits. The essence of the block grant approach is to vest substantial discretion and
accountability for these matters with the grantees , without imposing costly
administrative burdens. Indeed , this was the frame of reference in the combined
regulations developed by the Department of Health and Human Services (HHS) for
the block grant programs included in the 1982 legislation. Particularly pertinent in this
regard is the following HHS instruction of fiscal and administrative requirements:
 Except where otherwise required by Federal law or regulation , a State shall obligate
and expend block grant funds in accordance with the laws and procedures applicable
to the obligation and expenditure of its own funds.

We did not conduct any review of our own of how the State administrative
requirements for grants and contracts compare with those of the Federal Government;
nor did we become aware of any such studies performed by other parties.

A second reason for concern has to do with the adequacy of the statewide single audit
mechanism. The General Accounting Office (GAO) has reported that this mechanism
has contributed to better financial management practices in State and local
governments. The GAO also noted limitations that impede its usefulness to Federal
agencies responsible for program oversight. 9 These limitations concern the time it
takes to issue a report after the close of the audit period , the limited manner in which
audit results are sometimes presented , and the sufficiency of information acquired on
                            lO Other concerns expressed by auditors in Federal offices
internal control structures.

of inspector general concern the limited number of transactions reviewed for any given
program and the exclusion of grantees below a certain threshold level. At this writing,
there are proposals under consideration in the House of Representatives and the
Senate that address many of the concerns that GAO and others have expressed about
the Single Audit ACt.



Contrasting Perspectives on Other Accountabilty Issues

Historically, there have been widely varying views on how and how much the Federal
Government should seek accountability that involves more than assuring that funds are
spent for intended purposes. On the most permissive end have been those arguing
that not much more is necessary. Those holding to this school of thought have tended
to emphasize that the basic accountability is to the citizens of the States and localities
in which block grant funds are being used. This perspective is clearly conveyed in the
following excerpt from the preamble to regulations that the Department of Health and
Human Services (HHS) issued in July 1982 and that applied to the seven HHS block
grant programs established by the Omnibus Budget Reconciliation Act of 1981:

              The fundamental check on a State s use of block grant
              funds is the State s accountability to its citizens , which is
              implemented by public disclosure within the State of
              information concerning use of funds. Accordingly,     when
              an issue arises as to whether a State has complied with its
              assurances and the statutory provisions , the regulations
              provide that the Department wil ordinarily defer to the
              State s interpretation of its assurances and the statutory
              provisions. Unless the interpretation is clearly erroneous
              State action based on that interpretation wil not be
              challenged by the Department.
At the other end of the spectrum are those arguing that accountability as spelled out
above affords grant recipients far too much discretion. Proper accountability, they
contend , must include various programmatic and process conditions imposed on
grantees. Programmatic conditions could include earmarking certain portions of funds
for certain tyes of service recipients or certain types of services. They could also
include specifications on how services are to be delivered. Process   conditions could
address a wide variety of provisions addressing such matters as planning and
evaluation requirements , advisory group roles , and complaint mechanisms.

Proper accountability, they have also pointed out , must include various oversight
authorities conferred on Federal agencies. These could include the authority to review
and approve planning applications , to conduct compliance reviews , to respond to
complaints from parties affected by the grantees ' actions , and to impose penalties or
corrective actions.

Emergig Interest in Performance
In recent years , it appears that the distance between these extremes may be narrowing
somewhat and that an increasing consensus may be emerging about proper
accountability. This position is well articulated in the Vice President s Report on the
National Performance Review , issued in September 1993. In part , that report noted:

       The federal government must shift the basic paradigm it uses in
       managing state and local affairs. It must stop holding programs
       accountable for process and begin holding them accountable for results.

At the Federal level there have been a number of actions that reinforce this kind of
emphasis on performance. Consider the following:

       The Chef Financial Offcers Act of 1990. Calls for Federal agencies to
       establish management systems engaged in the systematic measurement
       of performance.

       Governent Performance and Results Act of 1993.       Requires Federal
       agencies to develop annual performance plans incorporating to the
       maximum extent possible the use of measurable performance goals and
       indicators.

      Amendments to Block Grant Programs. Congress has amended some of
       these programs to place greater emphasis on accountability for
      performance. This is most clearly apparent for Maternal and Child
      Health.

      Recent Report.   An HHS OIG report called for a performance based
      approach to block grant funding for public health programs and
      delineated a research and demonstration strategy toward that end. 

       GAO report called for focusing Federal management and accountabilty
       on program results and outcomes. It added the warning that such a
       focus may be critical in preserving the discretion that is central to block
       grants.

       Proposed Public Health Servce Performance Partnership Act of 1995.
       This Administration proposal calls for combining 35 narrowly focused
       grants into 5 partnership grants that afford States greater flexibilty and
       involve joint Federal- State efforts in specifying performance objectives.

       Proposed Medicaid Transformation Act of 1995.        This congressional
       proposal calls for converting the current Medicaid program to a block
       grant. It includes provisions requiring States to develop performance
       goals and to describe how program performance wil be measured.

This increasing convergence toward an approach that enhances the discretion of
grantees but holds them accountable for performance is reinforced by other basic
developments in our society. One such development is the continuing advance in
information technology. This advance makes it much more possible than it would
have been only a few years ago for those awarding grants to allow for broad
delegation of authority and yet stay closely attuned to performance, perhaps on a real-
time basis. Another reinforcing development is the widespread movement in private
corporations to enhance productivity by reducing central planning and management
roles while delegating additional authority and responsibility to the operating entities.
In the American Federal system , the States and local governments serve as the
public s operating entities.

SPECIFIC ACCOUNABILIT ISSUE

In Table 2 , we present an inventory of accountabilty provisions that we developed. It
provides a reasonable framework for addressing the sufficiency of the accountability
provisions in the statutes of Federal block grant programs. In appendix A , we indicate
the number of block grant programs including each     provision. This compilation ,   we
must reiterate , does not in itself provide a basis for judgments about the efficacy,
appropriateness , or feasibility of particular accountability provisions. It does , however
provide a baseline of information concerning congressional intent about the conditions
that should be imposed on block grant recipients and about the extent to which and
manner in which Federal agencies should oversee grantees.
                                                                :.. .:.




                          Table 2: Accunlability Proviions for Bloc Grant   Pro
                 Perfonnance

                          Developing Program Plans

                          Setting Performance Goals

                          Establishing Performance Indicators

                          Collecting and Verifying the Accuracy of Performance Data
                          Conducting Program Evaluations
                          Preparing Reports

               .YlIancial Managcmcnt.

                          Report of Expenditures


                          Conducting Audits
                          Conducting Pre- Audits
                          Fund Accounting Procedures
                         Assuring Level of Expenditures
                         Remittance of Certain Amounts
                         Penalties

               : Progrmmatic. Requircmcnts

                         Earmarking Funds

                         Asuring Access


                         Providing Services


                Quality Asc;urance


                         Assuring Minimum Standards of Personnel
                         Assuring Minimum Standards of Facilities
                         Offering Complaint , Grievance , or Appeals Mechanisms



Financial Management

The block grant statutes themselves offer little basis for the Federal Governent to
determe the adequacy of the control and oversight of fiancial management.
      The statutes , in effect , rely heavily on each State s own laws and procedures
      concerning the obligation and expenditure of funds and each State s own
      systems for grants management and recordkeeping.

      Eight of 13 statutes have provisions indicating             how often audits have to be
      submitted to the Federal agency overseeing                the program.
        A minority of the statutes have provisions requiring that an audit be
        made available to the general public (5) or to general purpose
        government (4).

The extensive reliance on State laws , procedures , and systems is consistent with the
block grant philosophy of maximizing the discretion available to the grant recipient.
We must be sure , however , that this approach does not result in any diminution of the
Federal Government s capacity to assure itself that block grant funds are spent only
for intended purposes. In this context it is important to note that the Single Audit Act
applies to all 13 block grant programs , even though in our review we found that only 3
of the statutes explicitly reference the single audit mechanism.

Performance

About half of the block grant statutes devote no attention to measurable program
results that facilitate an understanding of performance.

       Seven of the  13 statutes do not call for performance goals and indicators
       expressed in tangible , measurable terms as called for by the Government
       Performance and Results Act.

       Most statutes (10) require the grantee and/or Federal agency to perform
       some kind of program evaluation during some period of time , but only
       6 have an explicit evaluation requirement directed to the grantee.

       Most statutes require both the grantee to submit a report to the Federal agency
       (10) and for the Federal agency to submit one to Congress (11), but , with a few
       exceptions , the data called for in these reports are for outputs rather than
       outcomes.

       None of the statutes includes provisions calling for verification of the accuracy
       of performance or other evaluative    data used by either the grantee or the
       Federal agency.


These limitations indicate a clear gap between the increasing consensus on
accountability for performance and the reality of what is currently required in Federal
block grant statutes. This gap warrants serious concern because in large measure the
case for enhancing the discretion available to grantees (by minimizing various process
conditions) rests on holding grantees accountable for demonstrating their expected and
actual performance in precise , measurable , and reliable ways. This demonstration of
accountability is as important to the citizenry of the States and localities as it is to the
Federal agency disbursing the grant funds.

Without developing and disseminating measurable performance data , citizens , funding
agencies , and other interested parties will be hard- pressed to assess the comparative
performance of block grant programs over time. Without such data presented in
  accord with a common national format , they wil also be hard- pressed to compare the
  performance of grantees across the Nation. Generally stated goals and objectives
  which in one way or another are called for in all the programs , do not in themselves
  provide an adequate foundation for performance accountability or for countering
  pressures for increasing recategorization of block grant programs; too often they fail to
  identify relevant performance goals and measures for judging results.

. Itshould be noted that the Job Training and Partnership Act and the Maternal and
  Child Health Block Grant statute have the most explicit and extensive references to
  performance goals and indicators. The latter statute and the Preventive Health and
  Health Servces Block Grant statute focus heavily on achieving the Year 2000
  performance objectives developed by the Public Health Service in the Department of
  Health and Human Servces.

  Programmatic Requirements

  Most block grant statutes include conditions governng who gets served and what
  servces are offered; however, the range of specifcity is quite broad.

          Nine statutes include earmarks that call for a designated proportion of funds to
          be spent on certain categories of recipients. Eight stipulate a proportion of
          funds for certain types of services.

          Nearly all (12) require the grantees to provide explicitly defined services , to
          coordinate with other relevant bodies or groups , and/or to carry out servces in
          particular ways. Some of these provisions are quite broad , however.

 The earmarking provisions serve as a means for Congress to channel funds to certain
 groups of service recipients and certain types of service providers that it regards as
 warranting special attention. Earmarking also serves as a means of protecting such
 recipients or providers from the sudden elimination of Federal support. The other
 tyes of programmatic conditions are typically quite general in nature (underscoring,
 for instance , the need to coordinate planning and service delivery). In a few cases
 however , they offer quite prescriptive instructions on how some services are to be
 delivered. For those statutes including such provisions , the range of specificity is quite
 broad.

 Quality Assurance

 Block grant statutes by and large leave quality assurance issues to State and     local

 grantees. Few statutes include specific provisions addressing such issues.

          The most frequently addressed provisions bearing on quality assurance concern
          complaint , grievance , or appeals mechanisms. Four statutes call for the
          grantees to establish such mechanisms. Two of these statutes and four others
          call for the Federal agency to establish such mechanisms.
Two statutes (Job Training Partnership Act and the Elementary and Secondary
Education Act) call for these mechanisms to be in accordance with Federally
prescribed procedures; the others that address the issue leave it up to the grantees.
References to standards for per onnel or facilties offer minimal guidance. For
instance , the Social Servces statute indicates that funds may not be used for child care
servces that do not meet applicable State and local standards.


CONCLUSION

Decisions concerning accountability for block grants are political ones and such
decisions rest heavily on one s views of the roles of Federal and State governments.
If those who craft legislation to develop new or modify existing block grant programs
believe that the Federal Government ought to have a significant role in ensuring the
proper and effective use of block grant funds , then they must provide an adequate
basis for doing so. Toward that end , we offer the following four suggestions:


       Require that the Federal Uniform Administrative Requirements or similar
       provisions apply to all block grant programs.

       Establish an appropriate mechanism for measuring and verifying program
       performance. It would be reasonable in this context to look to the Government
       Performance and Results Act of 1993     for general guidance.


      Specify programmatic requirements in the statute itself. This might involve
      earmarks for certain categories of recipients and/or certain types of funds and
       an explicit listing of the types of services covered or unallowable.

       Examine other provisions that we have identified in this report to determine
      the kind of accountability that is desired for any specific block grant program.
      We have developed a checklist of them in Table 2 of this report.

On the other hand , if the intention is minimize the Federal Government s role , then
provisions such as those noted above , which move toward the categorical end of the
Federal grant continuum  , become   less pertinent and State mechanisms become much
more important. It is important to recognize , however , that this is likely to leave
Federal offcials with little or no capacity to ensure that funds are used for the
purposes intended and to move block grants much closer to the general revenue
sharing end of the continuum.
COMMENTS ON THE DRAFT REPORT


We asked the Inspector Generals of the five Federal departments covered in our
review for comments on a working draft report. We did the same for various
programmatic representatives of specific block grant programs. With these comments
we were able to make a number of corrections and important clarifications in the
report.

Within the Inspector General community, there was strong support for greater Federal
Government attention to the accountability   issues raised in the report. There was
particular support for the suggestion that Federal Uniform Administrative
Requirements or similar provisions apply to all block grant programs.

On the other hand , a Federal representative of a block grant program emphasized
that such a requirement would go against the very grain of block grants and would add
unnecessary costs to State administration of the grants.

Finally, a few commenters underscored the limitation of the report in that it focuses
only on those accountability provisions which are set forth in Federal block grant
statutes. They agreed with our advisory that a more complete understanding of
accountabilty for block grants would call for a review of regulatory and non-regulatory
guidance provided by Federal agencies and of actual Federal practice in enforcing
statutory and regulatory requirements.
             . . . . . . . . .. .. .. .. ..    .. .. .. .. .. .. .. ... ....... ... ........................
                                          .....................................     ... ... ... ... ....... ... .. .. ... ....... ... ... ................. ........ .. .. ..
                                                                                                                                                                            . .
                                                                                                                                                                              ..




                                                                                                                                                          APPENDIX A
         ACCOUNTABILIT PROVISIONS

             IN BLOCK                                        GRAT                                STATUTES

                                               TABLE OF CONTNT

OVERVIW. .
PROGRA ACRONYS.
PERFORMCE
FINANCIAMAAGEMENT
PROGRAATIC REQUIMENT
QUALIT ASSURNCE
DEFINONS OF PERFORMCE TERMS

.- .... ..-.'"
 .....
     ... ..




ACCOUNABILIT PROVISIONS IN BLOCK GRANT STATU: OVERVIW



                                                       Number of Block Grant
                                                       Programs Specifg 1 or
                     Accountabilty Provision           More Requirements
                                                       Concerng the
                                                       Accountabilty Provision

JPeff6fnance
         Developing Program Plans
         Setting Performance Goals
         Establishing Performance Indicators
         Collecting and Verifying the Accuracy of
         Performance Data
         Conducting Program Evaluations
         Preparing Reports
Financial- Management
         Report of Expenditures

         Conducting Audits
         Conducting Pre- Audits
         Fund Accounting Procedures
         Assuring Level of Expenditures
         Remittance of Certain Amounts
         Penalties
Programmatic Requirements
         Earmarking Funds

         Assuring Access

         Providing Services

Quality Assurance
         Assuring Minimum Standards of Personnel
         Assuring Minimum Standards of Facilities
         Offering Complaint , Grievance , or Appeals
         Mechanisms


                                          A - 2

         ACRONYS FOR BLOCK GRA PROGRAS


CCDBG      Child Care Development Block Grant
CDBG       Community Development Block GrantlEntitlement Program
CMHS       Community Mental Health Services
CSBG       Community Services Block Grant
EDU        Elementary and Secondary Education Act ,     Title VI:
           Innovative Education Program Strategies

FTCOA      Federal Transit Capital and Operating Assistance

JTPA       Job Training Partnership Act , Titles IIa & IIc:
           Training for Youth and Disadvantaged Adults

LIHEAP     Low Income Home Energy Assistance Program

MCH        Maternal and Child Health
PHHS       Preventive Health and Health Services

SAPT       Substance Abuse Prevention and Treatment

SSBG       Social Services Block Grant

STP        Surface Transportation Program





                               A - 3

    ... ..
 ....
...     . .. ........
      ....."
      ... .... ...
   ...........
 ""...""        .    . .                               ...            . .            '"   ....


             ACCOUNABILIT PROVISIONS IN BLOCK GRA                            STATU:
                                           PERFORMACE

                                FEERA
         REQUIMENT              STATIDRY                     BLDCK   GRA PRDGRAS
                                MAATE
               .PrOg             YES(l3) .    MCH, SSBG EDU , FrCDA CMHS SAPT LtHEAP
....ti               Ql..Plar                . CCDBG , JTPA, CDBG PHHS,STP CSBG.

 Grantee must develop                         MCH, SSBG , EDU, FrCDA, CMHS , SAPT, LIHEAP

 program plan                                 CCDBG , JTPA , CDBG , PHHS , STP , CSBG


 Grantee must develop plan                    STP
 jointly with Federal agency
 Grantee must coordinate                      MCH , EDU , FrCDA , LIHEAP, CCDBG , CDBG, JTPA

 with other bodies in                         PHHS , STP , CSBG

 developing plan


 Grantee must submit plan                     MCH, SSBG , EDU , FrCDA , CMHS , SAPT, LIHEAP
 to Federal agency                            CCDBG , JTPA , CDBG, PHHS , STP , CSBG
 Grantee must submit plan in                  MCH , EDU , FrCDA , CMHS , SAPT, LIHEAP , CCDBG

 specified time frame                         CDBG , STP , CSBG


 Plan must specify staffng                    FrCDA , CMHS , PHI-IS , STP
 resources
 Plan must specify intended                   MCH , SSBG , EDU , CMHS , SAPT, LIHEAP , JTPA , CDBG
 expenditures                                 PHHS , STP , FrCDA

 Plan must describe needs                     MCH , FrCDA , CMHS , JTPA , STP , SAPT, CSBG
 assessment procedure
 Plan must describe service                   FrCDA , CMHS , LIHEAP , JTPA , CDBG , STP
 delivery approaches

 Plan must offer specified                   MCH , EDU , FrCDA , CMHS , SAPT , LIHEAP , CCDBG

 programmatic assurances                     JTPA , CDBG , PHHS , STP , CSBG


 Plan must conform to                        MCH , CMHS , STP , LIHEAP , CDBG , CSBG
 format prescribed by

 Federal Government

 Plan must be reviewed by                    FrCDA, CMHS , SAPT, JTP A , CCDBG , CDBG , STP
 general purpose government

 Plan must be reviewed by                    CMHS , JTPA , STP , FrCDA

 advisory body


 Plan must be reviewed at                    FrCDA , LIHEAP , CCDBG , JTPA , CDBG , PHHS , STP

 public hearing                              CSBG


 Plan must be made available                 MCH , SSBG , FrCDA , CMHS , SAPT, LIHEAP , JTPA

 to public                                   CDBG , PHHS , STP , CSBG


Federal agency must                          MCH , EDU , FrCDA , CMHS , SAPT , CCDBG , JTPA
approve plan                                 CDBG , STP

SetingPerformance Goals          YES (5)     MCI-I , CMHS , JTPA , PHHS , LIHEAP




                                              A-4
  ::')::­ .. ,                                                                - -




  Grantee must develop                      MCH , CMHS , JTP A , PHHS

  performance goals

  Grantee must develop                      LlHEAP
  performance goals jointly
  with Federal agency


  Grantee must submit                       MCH , CMHS , PHHS

  performance goals to

  Federal agency


  Grantee must submit                       MCH , CMHS , PHHS

  performance goals to

  Federal agency in specified
  time frame
  Grantee must submit                       MCH , JTP A , PHHS

 particular performance goals

 specified by Federal agency

 Performance goals must                     MCH
 conform to format
 prescribed by Federal agency


 Performance goals must be                  CMHS

 reviewed by general purpose

 government

 Performance goals must be                  CMHS
 reviewed by advisory body

 Performance goals must be

 reviewed at public hearing

 Performance goals must be                  MCH , JTP A , CMHS , PHHS

 made available to public


 Federal agency must                        MCH , CMHS
 approve goals
 Federal agency must tie                    JTPA
 funding to meeting
 performance goals
EStablishigPerorme               YES (6)    MCH , CMHS , JTP A, PHHS CSBGjLIHEAP
liiaJrs


 GranteemustdeveloP                         MCH , Ci\1HS , PHHS , CSBG
 performance indicators

 Grantee must develop                               , LlHEAP
 performance indicators                    I PHHS
jointly with Federal agency
 Grantee must submit                        MCH , CMHS, JTP A , PHHS , CSBG
performance indicators to
Federal agency


Grantee must submit                         MCH , CMHS , PHHS
performance indicators to
Federal agency in specified
time frame




                                             A-5
                                                                                   '..   ... ........".




 Grantee must submit                       MCH , JTP A , PHHS
 particular performance
 indicators specified by
 Federal agency

 Performance indicators must               MCH , PHHS
 conform to format
 prescribed by Federal agency



 Performance indicators must
 be reviewed by general
purpose government

Performance indicators must                CMHS
be reviewed by advisory
body

Performance indicators must
be reviewed at public
hearing
Performance indicators must                MCH , PHHS , CMHS
be made available to public

Federal agency must                        MCH , CMHS
approve indicators

Federal agency must tie                    JTPA, CSBG
funding to performance
indicators
gerfygAccuac of                  NONE
Peiorme DaJa
Grantee must verify
accuracy of performance
data
Federal Government must
verify accuracy of
performance data
Conductig Pram                  YES (10)   EDU, FrCOA , CMHS , SAPT, CCDBG , CDBG , PHHS
EviJuans                                   STP , CSBG , JTPA

Grantee must conduct                       EDU, CMHS , SAPT , CDBG , PHHS , JTPA
evaluation of program
Grantee must conduct                       STP
evaluation jointly with
Federal agency

Grantee must conduct
evaluation in coordination
with other agencies

Grantee must conduct
evaluation which indicates
results in terms of specified
performance goals and
indicators




                                           A-6
  Grantee must submit                       EOU , COBG
  evaluation to Federal agency
  Grantee must submit                       EOU , COBG
  evaluation in specified time
  frame
  Evaluation must conform to                COBG
  format prescribed by
  Federal Government

  Evaluation must be reviewed               JTPA
  by general purpose
  government
  Evaluation must be reviewed               JTP A, CMHS
  by advisory body
  Evaluation must be reviewed
  atpublichearing
  Evaluation must be made                   JTPA , EOU , COBG , STP
  available to general public

  Federal agency must                       CMHS , SAPT, STP , CSBG
  perform evaluation of
  grantee program

  Federal agency must                       FrCOA, CCOBG , PHHS , CSBG, JTPA , LIHEAP , CMHS
  perform compliance reviews                SAPT

.1fepg
               Report            YES (13)   MCH , SSBG, EOU CMHS SAPT UHEAP , CCOBG
                                            JTPA, COBG PHHS , STP CSBG FrCOA
 Grantee must prepare                       MCH , SSBG , EOU , CMHS , SAPT , LIHEAP , CCOBG
 report                                     JTP A , PHHS , STP

 Grantee must submit report                 MCH, SSBG , EOU , CMHS , SAPT, LIHEAP , CCOBG
 to Federal agency                          JTP A , PHHS , STP

 Report must include the                    MCH , SSBG , EOU , LIHEAP , CCOBG, CMHS , JTPA
 number of individuals served
 Report must include the                    MCH , SSBG , EOU , CCOBG , PHHS , CMHS
 amount spent in providing
 services


 measures
 Report must include output                 MCH , SSBG , EOU , CMHS , SAPT, CCDBG , PHHS


 Report must include                        MCH , SAPT, JTP A, PHHS , CMHS
 outcome measures

 Report must include criteria               SSBG
 applied in determining
 eligibility

 Report must include                        SSBG
 methods by which services
 were provided

 Report must conform to                     MCH , JTP A , PI-IHS
 format prescribed by
 Federal Government



                                             A-7
Report must be made            MCH
available to general purpose
government
Report must be made            MCH , SSBG , EDU , CMHS, SAPT, PHHS
available to public


Federal agency must report     MCH , CMHS , SAPT, LIHEAP , CCDBG , JTPA , CDBG
to Congress                    PHHS , STP , CSBG , FrCDA




                               A - 8

:' ,                           ...                                           ..           ..    .. . ..   ...   " ,





         ACCOUNABILIT PROVISIONS IN BLOCK GRA                                     STATU:
                    FINANCIA MAAGEMENT

                                     FEERA
       REQUIMENT                     STATIORY                   BLOCK   GRA PROGRAS
                                     MAATE
             ExndiJes                . YES   (10) MCH,SSBG EDU , CCDBG JTPA CDBG            PHHS, S'I,
1Jepol1 of
                                                   CSBG,   FTCOA .
Grantee must prepare report                        MCH , SSBG , EDU, CCDBG , JTPA , CDBG, PHHS , STP
of actual expenditures                             CSBG

Grantee must submit report                         MCH, SSBG , EDU , CCDBG , JTPA , CDBG , PHHS , STP
to Federal agency                                  CSBG

Grantee must submit report                         MCH , SSBG , EDU , CCDBG , CDBG , PHHS , S11 , CSBG
in specified time frame
Report must conform to	                            MCH , JTPA , PHHS , FTCOA
format specified by Federal
Government
Report must be reviewed by

general purpose government

Report must be reviewed by                         JTPA
advisory body

Report must be reviewed at
public hearing
Report must be made                                MCH , SSBG , EDU , PHHS
available to general public

Federal agency must report                         MCH , CCDBG , PHHS , STP , FTCOA
to Congress on expenditures

Condtig Audit                          YES (11)	   MCH, SSBG , FrCOA , CMI-IS , SAPT, UHEAP CCDBG
                                                   J11 A , CDBG , PHHS , CSBG

Grantee must have financial                        MCII , SSBG , FrCGA , LII-IEAP , CCDBG , PHHS , CSBG
audit performed by
independent party

Grantee must have financial                        CMHS , SAPT, UHEAP
audit performed under single
audit mechanism
Grantee must submit                                MCI-I , SSBG , LII-EAP , CCDBG, PHHS , CSBG , CMHS
financial audit to Federal                         SAPT
agency

Grantee must submit                                MCH, SSBG , LII-EAP, CCDBG , PHHS , CSBG , CMHS
financial audit to Federal                         SAPT
agency in specified time
period

Financial audit must be                            SSBG , LIHEAP , CCDBG , CSBG
reviewed by general purpose
government
    : .




Financial audit must be
reviewed by advisory body

Financial audit must be
reviewed at public hearing
Financial audit must be made                 MCH , CMHS , SAPT, LIHEAP , PHHS
available to general public

Federal agency must perform                  FrCGA , CMHS , SAPT, LIHEAP, COBG , CSBG
audit of grantee program
 S. Comptroller General                      LIHEAP , PHHS , CSBG

must perform audit of

grantee program

(;orUtigPre-AudiJ                  NGNE
Federal agency must conduct
pre-audit preceding
application approval

fWt. accouning    predures         YES (5)   MCH , LIHEAP; JTP A , PHHS , CSBG
Grantee must establish fund                  MCH , LIHEAP , JTPA , PHHS , CSBG
accounting procedures

4fgLe
!#ndes
       l of                       YES (13)   MCH , SSBG , EOU , FrCGA , CMHS , SAPT, LIHEAP
                                             CCOBG, JTPA COBG, PHHS, STP , CSBG
Grantee must assure                          MCH , EOU , FrCGA , CMHS , SAPT, CCOBG , PHHS
maintenance of financial                     JTP A , STP
effort
Grantee must provide                         MCH , FrCGA , SAPT, STP, JTPA
specified matching shares of
expenditures
Grantee must adhere to                       MCH , EOU , CMHS , SAPT, JTPA , COBG , PHHS , STP
specified limits on                          CSBG
administrative costs


Grantee must adhere to                       SSBG, JTPA , PI-HS , STP , CSBG
limits on the transfer of funds


Payments to grantee must be                  MCH , SSBG , STP , CSBG , JTPA , CMHS , SAPT, CCOBG
expended within given time
frame

R.imitane o/Cerai                 YES (11)
                                             MCH , FrCGA, SSBG , LIHEAP , CCOBG , JTPA,PHHS,
Amwz                                         STP CSBG , CMI-S , SAPT

Grantee must remit                           MCH , FrCGA , LIHEAP, STP, CMHS, SAPT
unobligated funds to Federal

agency

Grantee must remit funds                     MCH , SSBG , LII-EAP , CCOBG , PHI-S , CSBG , JTPA
not expended in accordance
with the block grant

Piiti                             YES (11)   MCI-, EDU, CMHS , SAPT, LIHEAP , CCDBG JTPA,
                                             PHHS , STP , CSBG, FrCGA




                                             A-
Federal agency must withhold    MCH , EDU , CMHS , SAPT, LIHEAP , CCDBG , JTPA
funds from grantee in           PHHS , STP , CSBG , FrCDA
noncompliance
Federal agency must reduce      CMHS , JTP A
allotment for incomplete plan
implementation




                                A -

.""
....."
   ..'"'
.....
 .\\,'
...
 ...     .\. . ......
                  .........
                       ...
                        . ..                                                              ..       . .




                    ACCOUNABILIT PROVISIONS IN BLOCK GRA                       STATU:
                                 PROGRATIC REQUIMENT

                REQumMENT	          FEERA                      BLOCK   GRA PROGRAS
                                    STATUORY
                                    MAATE
                          gFui       YES (11)	   MCR EDU , CMHS , SAPT CCDBG JTPA; CDBG;STP,
                                                 CSBG FrCOA UHEAP

  Statute earmarks designated                    MCR , EDU , CMRS , SAPT, JTPA, CDBG , STP , CSBG

  proportion of funds for                        FrCOA

  certain categories of

  recipients

  Statute earmarks designated                    MCR , SAPT, CCDBG , JTPA , STP , CSBG , FTCOA

  proportion of funds for                        LIREAP

  certain types of services



 ##llnngAccess.                      YES (8)	    MCR, EDU, CMRS , SAPT CCDBG JTPA CDBG;

                                                 LIREAP

  Grantee must assure access                     MCR , EDU , CMRS , SAPT , CCDBG , JTP A , CDBG

  to certain categories of                       LIREAP

  recipients

n... ..
 l:oVUiHgSeres                       YES (12)    MCR , SSBG , EDU , FTCOA CMRS SAPT      URpAP,.
                                                 CCDBG , JTPA , CDBG, STP, CSBG .
  Grantee must coordinate                        MCR , EDU , FrCOA , CMRS , SAPT, UREAP , CCDBG
  delivery of services with other                JTP A , CSBG , STP
  bodies
 Grantee must provide                            MCR, SSBG , EDU , CMRS , SAPT, LIREAP , CCDBG,

 explicitly defined services                     JTPA, CDBG , STP , CSBG

  Grantee must carry out	                        FrCOA , CMRS , SAPT, CCDBG , STP , CDBG
 servces in a prescribed

  manner




                                                 A -

  .....
....
 ...   ."....
         .....
   ", 
....                         ..              .. .                                 . .. . .   ....   ..   ......
                                                                                                                .......




              ACCOUNABILIT PROVISIONS IN BLOCK GRA                                      STATU:

                            QUALIT ASSURCE

             REQUIMENT                     -=RY                        BLOCK   GRA PROGRAS
                                         MAATE

             gi1stands                    YES (4) . . CCDBG STP CMHS , FrCDA

  pFjJotil


   Grantee must assure that                                CCDBG, STP , CMHS , FrCOA
   personnel be licensed/certified I

             g1n         stanards         YES (5)          SSDG , CMHS , CCDDG, STP, FrCDA
  P!!tiiIiJ
   Grantee must assure that                                SSDG , CMHS , CCDDG, STP , FrCDA
  facilities be accredited
  Grantee must assure that                                 SSDG , CMHS , CCDDG , STP , FrCDA
  facilities comply with health
  and safety standards
  Offerg compla grane,                    YES (9)      EDU , FrCDA , CMHS , SAPT, LIHEAP , CCDBG , JTPA
  pr:appeal   mechams
                                                       CDDG , CSDG

  Grantee must establish                               LIHEAP , CCDDG , JTPA , CDDG , EDU
  complaint, grievance ,
                       or
  appeals mechanisms

  Grantee must establish                               EDU , JTPA
  complaint , grievance , or
  appeals mechanisms in
  accordance with prescribed
  Federal procedures

                          , or
  Federal agency must establish i
  complaint, grievance
  appeals mechanisms
                                                       FrCOA , SAPT , LIHEAP , CCDDG, CMHS , CSDG




                                                           A -

                           DEFINITIONS OF        PERFORMCE TERMS


Following are definitions of key terms concerning performance accountability. The
definitions are those set forth in Section 1115(f) of the Government Performance and
Results Act of 1993.



                 means a target level of performance expressed as a tangible
Performance goal 


measurable objective , against which actual achievement can be compared , including a
goal expressed as a quantitative standard , value , or rate.

Performance indicator         means a particular value or characteristic used to measure
output or outcome.



Output measure 
        means the tabulation , calculation , or recording of activity or effort and
can be expressed in a quantitative or qualitative manner.

Outcome measure 
  means an assessment of the results of a program activity compared
to its intended purpose.

Program evaluation 
  means an assessment , through objective measurement and
systematic analysis , of the manner and extent to which Federal programs achieve
intended objectives.




                                                 A - 14

                                                                                           APPENDIX B




                                                 ENDNOTES



 1. In distinguishing block grants by their             degree of discretion , we are thinking of
discretion across the four categories of accountabilty we use in this report.                 They
include Federal accountability provisions concerning financial management
performance , programmatic requirements , and quality assurance.

2. Congress terminated General                   Revenue Sharing for State governments in 1981 and
for local governments                 in 1986.
3. As we have noted , there is no definitive dividing line between a block grant and a
categorical grant. As a result , there can be differing views as to what programs are
properly regarded as block grants. Our approach was to use as a starting point the
15 block grant programs identified by the general Accounting Office in its February
1995 report entitled Block Grants: Characteristics, Experience, and Lessons Learned
(GAOIHEHS- 95- 74). From that universe , we eliminated one program because it was
discontinued as a block grant (" Projects for Assistance in Transition from
Homelessness ) and we combined the Community Development Block Grant (CDBG)
Entitlement Program and the CDBG State and Small Cities Program into one for our
purposes. The latter two programs serve the same basic purposes and have essentially
the same accountability provisions.

4. The extent of the difference is well ilustrated in a 1993 report of the                 Advisory
Commission on Intergovernmental Relations.                   It indicated that in 1993 ,593 categorical
grant programs accounted for $147.4                 bilion in appropriations.   This compared with
15 block grant programs accounting for $17. 6 bilion. See Advisory Commission on
Intergovernmental Affairs Characteristics of Federal Grant- in-aid Programs to State and
Local Governments: Grants Funded FY                   1993, January 1994.


                               U. S. Department of Health and Human Service
5. Office of Inspector General ,
Federal Approaches to Funding Public Health Programs OEI- 94- 00160 , July 1995.

6. Our taxonomy     provides a comprehensive , but not exhaustive listing of the kinds of
accountability provisions that exist in the statutes. It is offered with the intent of
facilitating an understanding of the extent and types of accountability provisions , not of
providing an accounting of all those that exist. Further , it is limited to a review of
those provisions included within the block grant statutes themselves. There are other
Federal statutes , such as: (1) those prohibiting racial, age , and other forms of
discrimination , (2) the Inspector General Act of 1978 as amended , (3) the Single State
       , p.





Audit Act of 1984 , and (4) others that apply to block grant recipients even if they are
not specifically addressed in the Federal block grant legislation.

7. Essentially, these are reflected in OMB circular                 87   and A- 102.   For the
Department of Health and Human Services                   they are set forth in 45 C.F. R. Part 92.
Other departments have their own regulatory citations.

8. See 45 C.F. , sec. 96. 30. The regulation also states: " Fiscal control and accounting
procedures must be sufficient to (a) permit preparation of reports required by the
statute authorizing the block grant and (b) permit the tracing of funds to a level of
expenditure adequate to establish that such funds have not been used in violatjon of
the restrictions and prohibitions of the statute authorizing the block grant.

9. A 1993 report by the President  s Council on Integrity & Efficiency also noted some
limitations. See President's Council on Integrity & Efficiency Standards
Subcommittee Study on Improving the Single Audit Process September 1993.

10. See General Accounting Office Single Audit Act: Refinements Can Improve
Usefulness GAO/AIMD- 94- 133 , June 1994 and General Accounting Office Block
Grants: Characteristics, Experience, and Lessons Leamed GAOIHEHS- 95- , February
1995.

11. The proposal under consideration in the House of Representatives is H.                       3184.
The proposal under consideration in the Senate is S. 1579.
12. In a recent report , the GAO has noted three options available to policymakers
seeking to establish accountability without burdensome provisions. They include: " (1)
relying on state processes both to manage block grant funds and to monitor and assess
compliance , (2) assessing the nature of requirements imposed on states , including the
applicability of cross-cutting requirements for national policy for block- granted
programs , and (3) emphasizing results- based evaluation rather than examining specific
program or administrative activities. 1I See U. S. General Accounting Office Block
Grants: Issues in Designing Accountability            Provisions   GAO/AIMD- 95- 226 , September
1995
